     Department of Homeland Security

     ��������������������������



Pennsylvania Department of Conservation and Natural 

 Resources Appropriately Expended $33.6 Million of 

          FEMA Public Assistance Funds 





DA-13-25                              September 2013

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security
                                      Washington, DC 20528 I www.oig.dhs.gov


                                                 SEP       5 2013


MEMORANDUM FOR:




FROM:

                                                    ergency Management Oversight

SUBJECT:                             Pennsylvania Department of Conservation and Natural
                                     Resources Appropriately Expended $33.6 Million of FEMA
                                     Public Assistance Funds
                                     FEMA Disaster Numbers 1557, 1587, and 1649-DR-PA
                                     Audit Report Number DA-13-25

We audited Public Assistance (PA) funds awarded to the Pennsylvania Department of
Conservation and Natural Resources (DCNR) (Public Assistance Identification Number
OOO-UE9RA-OO). Our audit objective was to determine whether DCNR accounted for and
expended Federal Emergency Management Agency (FEMA) funds according to Federal
regulations and FEMA guidelines.

The Pennsylvania Emergency Management Agency (PEMA), a FEMA grantee, awarded
DCNR $33.6 million for damages resulting from three federally-declared disasters:

    •    Tropical Depression Ivan (1557-DR-PA), which occurred September 17, 2004.
    •    Severe storms and flooding (1587-DR-PA), which occurred April 2, 2005.
    •    Severe storms, flooding, and mudslides (1649-DR-PA), which occurred June 23,
         2006.

The audit covered the period September 17, 2004, through June 19, 2013, and included
a review of 25 large and 3 small projects totaling $27,690,926 or 82 percent of the total
                      1
awards (see exhibit). Table 1 provides the specifics of each disaster.




1
 Federal regulations in effect at the time of these disasters set the large project thresholds at: $54,100 for
DR-1557, $55,500 for DR-1587, and $57,500 for DR-1649.
                          OFFI CE OF I NSP
                                         PECT OR GENERA L
                             Depar tment of Homel and Secur i ty




                        Table 1. Disaster-Specific Information

                                       Amount         Large      Small
                           Disaster Awarded         Projects    Projects        FEMA
Disaster                     No.      (Millions) Awarded Awarded               Funding
Tropical Depression Ivan    1557           $12.4       20         118            75%
Severe Storms, Flooding     1587           $11.2       14          6             75%
                                                                              100% first
Severe Storms, Flooding                                                       72 hours,
    and Mudslides            1649           $10.0      10          25       75% thereafter
         Totals                             $33.6      44          149


We conducted this performance audit between October 2012 and August 2013
pursuant to the Inspector General Act of 1978, as amended, and according to generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based upon our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based upon our audit objective. To conduct this audit, we applied the statutes,
regulations, and FEMA policies and guidelines in effect at the time of each of the
disasters.

We interviewed FEMA, PEMA, and DCNR officials; reviewed judgmentally selected
project costs (generally based on dollar value); and performed other procedures
considered necessary to accomplish our objective. We did not assess the adequacy of
the DCNR’s internal controls applicable to grant activities because it was not necessary
to accomplish our audit objective. We did, however, gain an understanding of the
DCNR’s method of accounting for disaster-related costs and its policies and procedures.


                               RESULTS OF AUDIT
DCNR successfully managed FEMA PA grant funds for damages resulting from three
separate disasters, DR-1557, DR-1587, and DR-1649. Department officials expended
and accounted for PA funds according to Federal grant regulations and FEMA guidelines
for the 25 large and 3 small projects we audited under the three disasters.




www.oig.dhs.gov                            2                                    DA-13-25
                          OFFI CE OF I NSP
                                         PECT OR GENERA L
                             Depar tment of Homel and Secur i ty



              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with DCNR, PEMA, and FEMA officials on August
13, 2013. Because the audit did not identify issues requiring further action from FEMA,
at this time, we consider this audit closed.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Kaye McTighe, Director; Trudi Powell, Audit
Manager; Ken Valrance, Auditor-in-Charge; Aaron Naas, Program Analyst; and Elizabeth
Finn, Program Analyst.

Please call me with any questions at (202) 254-4100, or your staff may contact Kaye
McTighe, Director, at (202) 254-4100.




www.oig.dhs.gov                            3                                   DA-13-25
                          OFFI CE OF I NSP
                                         PECT OR GENERA L
                             Depar tment of Homel and Secur i ty



                                                                               EXHIBIT
                             Schedule of Projects Audited

                          FEMA Disaster Number 1557-DR-PA
                              FEMA
Project       Award         Category of
Number       Amount            Work                          Project Scope
 1103        $1,697,039         G        Canal Debris Removal-Easton to Wy-Hit-Tuk Cty Pk
 1108         1,403,939         G        Canal Repairs-Easton to Wy-Hit-Tuk County Park
 1298            22,400         G        Canal Repairs-Historic Stone River Wall
 1302           628,804         G        Canal Repairs-Wy-Hit-Tuk then Downstream
 1308            50,250         G        Canal Repairs-‘Dry’ Hand-Laid Stone Walls
 1873           411,986         G        Canal Repairs-New Hope to Washington Crossing
 1874           574,022         G        Canal Repairs-Lock 13 to Virginia Forest Rec. Area
 1875           704,291         G        Canal Repairs-Lock 13 to Highway 32 Bridge
 1887           110,043         G        Repairs-Virginia Forest to Lower Limeport Bridge
 2280         2,565,176         G        Canal Repairs-Roosevelt Park to Bridgeton Hill Rd.
 5220           165,970         G        Repairs to Delaware State Forest Roads
 Total       $8,333,920


                          FEMA Disaster Number 1587-DR-PA

                              FEMA
Project       Award         Category of
Number       Amount            Work                          Project Scope
  421       $ 573,373           G        Canal Repairs-Highway 32 Bridge to Lock 13
  426           663,368         G        Canal Repairs-New Hope to Washington Crossing
  428           555,014         G        Canal Repairs-Washington Crossing to Yardley
  445            93,648         G        Repairs-Virginia Forest to Lower Limeport Bridge
  534         2,847,420         G        Canal Repairs-Easton to Wy-Hit-Tuk County Park
  536         1,065,236         G        Canal Repairs-Wy-Hit-Tuk County Park to Lock 22
  538           222,963         G        Canal Repairs-Lock 13 to Virginia Forest Rec. Area
  677           582,133         G        Repairs to Rocky Falls Stop and Waste Gates
  690         3,608,237         G        Canal Repairs-Roosevelt Park to Bridgeton Hill Rd.
 Total      $10,211,392




www.oig.dhs.gov                            4                                   DA-13-25
                          OFFI CE OF I NSP
                                         PECT OR GENERA L
                             Depar tment of Homel and Secur i ty



                            Schedule of Projects Audited


                         FEMA Disaster Number 1649-DR-PA

                           FEMA
Project       Award      Category of
Number       Amount         Work                         Project Scope
 2336       $2,378,700       G       Canal Repairs-Easton to Wy-Hit-Tuk County Park
 2613           50,049       G       Repairs-Virginia Forest to Lower Limeport Bridge
 2615        1,548,174       G       Canal Repairs-Wy-Hit-Tuk County Park to Lock 22
 2617          557,339       G       Canal Repairs-Highway 32 Bridge
 2618          436,705       G       Canal Repairs-Lock 13 to Virginia Forest Rec. Area
 2978        1,190,859       G       Canal Repairs-New Hope to Washington Crossing
 2989        2,476,878       G       Canal Repairs-Roosevelt Park to Bridgeton Hill Rd.
 3000          506,910       G       Canal Repairs-Washington Crossing to Yardley
 Total      $9,145,614




www.oig.dhs.gov                            5                                 DA-13-25
                         OFFI CE OF I NSP
                                        PECT OR GENERA L
                            Depar tment of Homel and Secur i ty



                                                                             Appendix
Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Acting Chief Privacy Officer

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region III
Audit Liaison, FEMA (Job Code G-12-058)

Grantee/State
Director, Pennsylvania Emergency Management Agency
Bureau Director, Pennsylvania Department of the Auditor General
Director of Audits, Pennsylvania Office of the Budget

Subgrantee
Department of Natural Resources and Conservation, Harrisburg, Pennsylvania

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




www.oig.dhs.gov                           6                                   DA-13-25
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
